                  U.S. Department of the Interior
                   Office of Inspector General




   Sole Source Contracting: Culture of
   Expediency Curtails Competition in
  Department of the Interior Contracting




Report No. W-EV-MOA-0001-2007           February 2008
Cover and Report Photos Courtesy of:

Consulting/IT Services: http://lal.cas.psu.edu/EXTENSION/Training/index.asp
Washington Monument Security Barriers: DOI-OIG, Western Region Photos
Cafeteria: http://kps.schoolwires.com/138010824174930873/site/default.asp
Ivory-billed Woodpecker: http://ecos.fws.gov/speciesProfile/SpeciesReport.do?spcode=B03Q
Midway Island: http://www.csuchico.edu/~curbanowicz/WorldWarIIEnds2005.html
Fish Ladder: http://www.lakeoroville.water.ca.gov/about/stats/images/fish-ladder.jpg
Shasta Dam: http://www.usbr.gov/mp/ncao/images/shasta_dam_fullsize.jpg
Security Camera: http://www.state.gov/cms_images/MG6388.jpg
Harper’s Ferry Bus: http://www.nps.gov/transportation/alt/documents/InsideTrans/New%20Buses%20updates%203.06.pdf
Cover Washington Monument: DOI-OIG, Western Region Photo
Report Washington Monument: DC SHPO http://www.nps.gov/nr/travel/wash/dc72.htm
Shasta Dam and Plant: http://www.usbr.gov/dataweb/html/shasta.html
Ellipse/President’s Park South: http://www.nps.gov/ncr/customcf/apps/pgallery/photo.cfm?pid=953&aid=104&gid=104
                    United States Department of the Interior

                                     Office of Inspector General
                                           Washington, D.C. 20240


                                                                              February 8, 2008

Memorandum

To:            Secretary

From:          Earl E. Devaney
               Inspector General

Subject:       Evaluation Report, Sole Source Contracting: Culture of Expediency
               Curtails Competition in Department of the Interior Contracting
               (Report No. W-EV-MOA-0001-2007)

        Attached is our report on sole source contracting, the third of three reports on the
Department’s acquisition processes. As you are aware, concerns over the use and misuse of
federal contracting dollars have brought contracting to the national forefront. For example,
recent Congressionally chartered and House reports, our reviews, U.S. Government
Accountability Office (GAO) reports, and enacted legislation have addressed deficiencies in
contracting government-wide. These reports have specifically addressed the lack of
competition, accountability, and transparency in government procurement. Given the
seriousness of these deficiencies and the current prevailing interest in and urgent need for
acquisition reform, I feel compelled to bring our findings to your immediate attention. We are
making three recommendations which, if implemented and built upon, should help you restore
competition to its proper place in the acquisition process and ensure that the Department and
the public receive the best value for goods and services purchased.

        Our review revealed a culture within the Department that values expediency in
contracting over protecting both the best interest of the public and the accountability,
integrity, and transparency in Departmental acquisition practices. Federal procurement policy
envisions the use of sole source contracting only in limited circumstances. However, we
found a preference toward sole source contracting that circumvented competition and raised
questions as to whether procurement dollars were being used appropriately. For example, we
noted that material modifications to competed contracts were, in effect, de-facto sole source
contracts; written justifications for sole source contracts were inadequate or nonexistent; fair
value pricing for sole source awards was not established; and small businesses were not given
opportunities to compete.

        This urgent need for competition, accountability, and transparency was also stressed in
our first two reports: (1) Framework Needed to Promote Accountability in Interior’s Grants
Management, issued August 2005, and (2) Proper Use of Cooperative Agreements Could
Improve Interior’s Initiatives for Collaborative Partnerships, issued January 2007.
Collectively, our three reports represent a holistic review of acquisition practices within the
Department and provide recommendations to significantly improve these practices and move
the Department toward a sound, business-like approach in acquiring goods and services.

       The legislation, as amended, creating the Office of Inspector General (OIG) requires
that we report to Congress semiannually on all reports issued. Please provide a written
response to this report by February 25, 2008. Please send your response to:

                              Ms. Kimberly Elmore
                              Assistant Inspector General for Inspections and Evaluations
                              U.S. Department of the Interior
                              Office of Inspector General
                              1849 C Street, N.W., MS 5341
                              Washington, D.C. 20240

        Your response should state concurrence or non-concurrence with the findings and
recommendations, including specific reasons for any non-concurrence. Your response should
also provide information on actions taken or planned, including target dates and titles of
officials responsible for implementation.

       We appreciate the cooperation shown by the Department during our evaluation. If you
have any questions about our work or report, please do not hesitate to call me at
(202) 208-5745.




                                                2
                                            TABLE OF CONTENTS


                                                                                                                                             Page
Introduction
   Background ................................................................................................................................. 1
   Objective and Scope ................................................................................................................... 2
Results
   De-facto Sole Source Contracts .................................................................................................. 3
   Fair Value Pricing ....................................................................................................................... 4
   Sole Source Justifications ........................................................................................................... 5
   Section 8(a) Contracts................................................................................................................. 6
Recommendations .......................................................................................................................... 8

Appendices
  1 Prior Reviews....................................................................................................................... 10
  2 Scope and Methodology ...................................................................................................... 12
  3 Sites Visited ......................................................................................................................... 13




Abbreviations:
   ADA ......................................................................................................................... Antideficiency Act
     AMR....................................................................................... Acquisition Management Review
     ANC ............................................................................................... Alaskan Native Corporation
     BIA ....................................................................................................... Bureau of Indian Affairs
     BLM ..............................................................................................Bureau of Land Management
     BOR ....................................................................................................... Bureau of Reclamation
     CD&L..................................................................................... Chavarria, Dunne & Lamey LLC
     CICA ......................................................................................... Competition in Contracting Act
     DoD ........................................................................................................ Department of Defense
     FAR ........................................................................................... Federal Acquisition Regulation
     FPDS ..................................................................................... Federal Procurement Data System
     FWS ........................................................................................... U.S. Fish and Wildlife Service
     GAO............................................................................. U.S. Government Accountability Office
     IDIQ ............................................................................. Indefinite-Delivery, Indefinite-Quantity
     NPS .......................................................................................................... National Park Service
     OFPP ............................................................................... Office of Federal Procurement Policy
     OIG.................................................................................................. Office of Inspector General
     PAM ...................................................................Office of Acquisition and Policy Management
     SBA ............................................................................................ Small Business Administration
     USGS .................................................................................................... U.S. Geological Survey




                                                                            i
                                            INTRODUCTION

Background
The dependency on sole source contracts, which                increase of contracts awarded through processes
has circumvented full and open competition and                that were “not fully and openly competitive”
led to fraud, waste, and abuse, continues to be a             within the Department. The 2005 Federal
concern across the federal government. Ongoing                Procurement Report identified that the
concerns over the acquisition process have been               Department did not compete $1.5 billion of its
cited in recent Congressionally chartered and                 procurements, or 33 percent of its total
House reports, as well as other reports, which                procurements (see Figure 1). This is an increase
underscore the lack of competition in                         from the numbers shown in the 1996 Federal
government procurement and increased sole                     Procurement Report, which shows $300 million
source contracting.                                           not competed, or 26 percent of the Department’s
                                                              total procurements.
For example, the Acquisition Advisory Panel’s
January 2007 report1 disclosed that federal                   Besides the Panel’s January 2007 report, other
agencies spent about $380 billion in 2005 for a               current efforts to reform the acquisition process
range of goods and services to meet their mission             include:
needs; over one-quarter of this amount was
awarded without competition. Because of the                   ♦ Proposed legislation2 requiring federal
magnitude of the procurement dollars involved                    agencies to reduce the use of sole source
and the federal government being the single                      contracts, limit the length of sole source
largest buyer in the world, the Panel made                       contracts awarded in emergency situations,
recommendations on how to improve                                and promote transparency in the acquisition
competition in government contracting and the                    process;
quality and transparency of the government
acquisition process. Further, House Report                    ♦ Recently enacted legislation3 whose purpose
110-187, dated June 2007, highlighted the                         is to increase transparency and accountability

                                             2005 Procurement Activity

           Interior: # of
       Procurement Actions

         Interior: $ Value of
           Procurements

          Fed Gov't: # of
       Procurement Actions

       Fed Gov't: $ Value of
          Procurements

                                0%        20%         40%           60%             80%             100%


                                                               Source: Federal Procurement Report FY 2005
                           Not Competed   Competed             https://www.fpds.gov/                   Figure   1
1
  Report of the Acquisition Advisory Panel to the Office of Federal Procurement Policy and the United States
Congress. The Panel was authorized by Section 1423 of the Services Acquisition Reform Act of 2003, which was
enacted as part of the National Defense Authorization Act for Fiscal Year 2004 (Public Law 108-136).
2
  Accountability in Contracting Act (H.R. 1362) passed the House on March 15, 2007.
3
  Federal Funding Accountability and Transparency Act of 2006 (Public Law 109-282), passed September 26, 2006.

                                                         1
        of federal contract and grant expenditures by         OIG reports (see Appendix 1), we made
        providing the general public free access to           recommendations related to improving
        information on federal funded awards                  acquisition practices within the Department or its
        through a single, searchable Internet website.        bureaus.
        The website became operational in
        December 2007; and                                    GAO also recognized the need for acquisition
                                                              reform in September 2005, when it issued its
    ♦   A May 2007 directive from the                         Framework for Assessing the Acquisition
        Administrator of the Office of Federal                Function at Federal Agencies. GAO issued this
        Procurement Policy (OFPP)4 requesting all             report after designating interagency contracting
        government chief acquisition officers and             as a high-risk area in the federal government for
        senior procurement executives to reinforce            fraud, waste, abuse, and mismanagement.7 For
        the use of competition and related practices          example, GAO on two separate occasions in
        for achieving a competitive environment,              2005 reported problems in interagency
        including reinvigorating the role of the              contracting between the Department’s National
        competition advocate.5 The OFPP directive             Business Center and GovWorks and the DoD.
        requested each agency procurement chief to            GAO developed its framework to enable high-
        work closely with his/her competition                 level, qualitative assessments of the strengths
        advocate to evaluate the overall strength of          and weaknesses of the acquisition function at
        the agency’s competition practices with a             federal agencies.
        focus on reviewing the level of competition
        at the agency, developing plans and goals for         Given the heightened concerns and efforts to
        maximizing competition, and preparing an              reform the procurement process, we designed
        annual report with appropriate analysis and           this report to highlight the corrective actions
        recommendations. The directive also                   needed to align the Department’s acquisition
        requested changes in the Federal Acquisition          practices with current reform initiatives and
        Regulation (FAR) to strengthen competition            comply with federal procurement regulations and
        policies, including transparency and                  policy. Such an alignment would encourage
        management practices and the centralization           competition, thereby promoting the integrity,
        of market research information for                    accountability, and transparency of the
        government-wide use.6                                 Department’s acquisition function.

    As reported in the Department’s Annual Report             Objective and Scope
    on Performance & Accountability, we identified            The objective of our evaluation was to determine
    “Procurement, Contracts, and Grants” as an                whether the Department is using sole source
    ongoing major management challenge facing the             contracting procedures appropriately in awarding
    Department since fiscal year 2002. We reported            and modifying its contracts. The scope of our
    on the Department’s improper use of cooperative           evaluation included all contracts, excluding those
    agreements and grants in January 2007 and                 made on behalf of other agencies, which were
    August 2005, respectively, and reported our               active during fiscal years 2005 and 2006. Our
    concerns on the Department’s procurement                  scope and methodology and sites visited are
    activities on behalf of the Department of Defense         detailed in Appendices 2 and 3.
    (DoD) in January 2007. In these as well as other

4
  OFPP is an office under the Executive Office of the President, Office of Management and Budget.
5
  The Office of Federal Procurement Policy Act requires each agency to designate a competition advocate to promote
competition and challenge barriers to competition in agency acquisitions. Each of the Department’s bureaus has a
designated competition advocate.
6
  Many of OFPP’s requested changes and proposed actions were recommended in the Acquisition Advisory Panel’s
January 2007 report.
7
  In GAO’s, High-Risk Series-An Update report dated January 2007, interagency contracting continues to be a
designated high-risk area.

                                                          2
                                                    RESULTS

    Contracting actions at the Department reveal a                Department’s level of reliance on sole source
    culture that values expediency over protection of             contracting was on par with other agencies, its
    the best interests of the public. This culture is             use of Section 8(a) contracts was significantly
    exacerbated by the lack of best practices. During             higher than the government norm, thereby
    numerous interviews with procurement officials                underscoring the Department’s culture of
    both inside and outside the Department, these                 expediency.
    officials could not identify any noteworthy
    federal procurement process from acquisition                  De-facto Sole Source Contracts
    planning to post-award and closeout. Given the                We reviewed 177 modifications to competed
    Department’s heavy reliance on sole source                    contracts and found 28 modifications
    procurements with inadequate or non-existent                  inappropriately altered the scope of the original
    justifications and its failure to establish fair value        contract, added significant additional work and
    prices for these procurements, the Department                 funding, and/or substantially extended the period
    has no assurance that the public gets the best                of performance. These modifications resulted in
    value for the goods and services it buys.                     improper sole source awards of additional work
                                                                  to contractors, in violation of the Competition in
                                                                  Contracting Act (CICA) of 1984,10 and had the
                                                                  effect of increasing the contracts’ value by
    "It is clear from the many private sector
                                                                  millions of dollars and significantly extending the
    buyers who testified before the Panel that                    period of performance.
         the bedrock principle of current
      commercial practice is competition."                        Modifying a contract so that it materially departs
                                                                  from the scope of the original procurement
       — Report of the Acquisition Advisory Panel                 violates the intent of CICA because doing so
                                                                  prevents potential bidders from participating or
                                                                  competing for what should be a new
    We found that modifications of competed                       procurement. When a proposed modification
    contracts sometimes resulted in de-facto sole                 alters the scope of an existing contract, adds
    source contracts and that justifications for other            significant additional work or funding,
    than full and open competition were non-existent              substantially extends the period of performance,
    or unconvincing. In addition, sole source                     or incorporates other major changes, then a
    contracting failed to ensure that fair value prices8          determination must be made by the contracting
    were established prior to the award of non-                   officer whether a proposed change can be
    competed contracts, including Section 8(a)9                   processed as a modification or whether the
    contracts. When benchmarking contract data of                 issuance of a separate contract is required.
    the Department, we found that although the                    Specifically, the contracting officer must justify

8
   Fair value price is used synonymously in this report as “fair and reasonable price” for sole source contracts and “fair
market price” for Section 8(a) contracts. Before making an award, FAR requires the contracting officer to determine the
proposed price is fair and reasonable which can be determined, among other things, through competitive quotes or
market research. FAR also requires an 8(a) contract to not be awarded if the contract price exceeds the fair market price,
which is a price based on reasonable costs under normal competitive conditions and not on lowest possible cost.
9
   The Small Business Administration’s (SBA) 8(a) Program, named for a section of the Small Business Act, is a
business development program created to help small disadvantaged businesses compete in the American economy and
access the federal procurement market. Participants are given preferential treatment in federal contracting.
10
    CICA (Public Law 98-369) requires, with limited exceptions, that contracting officers promote and provide for full
and open competition in soliciting offers and awarding U.S. government contracts over the simplified acquisition
threshold.
                                                             3
 in writing procedures that are not competitive,                 construction of the permanent physical security
 certify the accuracy and completeness of the                    enhancements was still in progress through
 justification, and obtain the necessary approvals.              2005-4 years after the terrorist attacks on “9/11.”
                                                                 Clearly, NPS had ample time to solicit offers for
 During our review of one such justification for                 the security work from other potential sources, as
 other than full and open competition, we found                  required by CICA.12
 that the National Park Service (NPS) contracting
 officer responsible for the contract to stabilize               In many of the questionable competed contract
 and preserve the Washington Monument                            modifications reviewed, significant changes to
 approved a material change to this contract that                the original contract scope were not properly
 increased the contract value from $5 million to                 justified in writing. For example, we found a
 $40 million. A subsequent modification                          Bureau of Land Management (BLM) contract for
 increased the contract value by an additional                   information technology support services that was
 $9.5 million from $40 million to $49.5 million                  modified at least six times to extend the
 and extended the performance period from 4 to                   performance period and add additional funds
 8 years. The $35 million modification11 added                   beyond what was provided in the original
 design-build services to enhance the physical                   competed contract. The period of performance
 security around the Monument because of the                     was extended from June 2, 2005, to September
 “unusual and compelling urgency” resulting                      30, 2007, and funding was increased by more
 from the September 11, 2001 terrorist attacks.                  than $9.8 million. Most of the questionable
 Although a written justification was prepared                   modifications that we reviewed occurred because
 and the necessary approvals obtained, we                        the contracting officers opted to take the fast and
 question the urgent need for this additional                    easy way, which was to modify an existing
 security work since temporary barriers were                     contract, rather than the conscientious and
 already in place around the Monument as a result                correct method, which was to issue a separate
                                                                             contract and promote competition.

                                                                            Fair Value Pricing
                                                                            Another common problem noted is the
                                                                            lack of fair value pricing for many of
                                                                            the sole source contracts reviewed.
                                                                            Contracting officials failed to ensure
                                                                            that the government received the best
                                                                            value for its dollars in 180 of the 412
                                                                            (44 percent) sole source contracts,
                                                                            including 8 (a) contracts, reviewed
                                                                            because the fair value price to a
                                                                            contract was not determined. We
                                                                            found a general weakness in fair value
                                                                            pricing because of the contracting
                          Washington Monument                                offices’ practice of accepting
                                                                             contractors’ proposed prices without
 of the August 1998 bombings of the American                     analyzing the cost and pricing data in detail to
 Embassy in Africa. Further, we question the                     ensure that the prices were fair. In some
 continued “urgency” of this security work since
11
   The $35 million modification was issued November 2001, and the $9.5 million modification was issued in May
2003. Although the contract’s cost ceiling was increased to $49.5 million, we were told that Congress did not provide
funding for the underground visitor center portion of this project. Total contract expenditures, as of April 2007, were
about $27.9 million with contract work substantially complete.
12
   One of the limitations to the use of the “unusual and compelling urgency” clause is that agencies are supposed to
request offers from as many potential sources as is practicable under the circumstances (FAR Subpart 6.302-2(c)(2)).

                                                             4
 instances, the contractors’ proposed cost and the             limited, and the appropriate contracting officer
 government’s cost estimate were identical                     must justify in writing when these exceptions to
 without any explanation, or the government’s                  full and open competition are used.
 cost estimate crept upwards to meet the
 contractor’s proposed cost without a detailed                 Out of the 296 sole source contracts reviewed,
 analysis of why or how this came about.                       143, or about 48 percent of these contracts, had

 For example, the Bureau of Indian Affairs
 (BIA) awarded a $564,714 Section 8(a)
 contract in September 9, 2005, for
 demolition services of 36 housing units
 located at a BIA boarding school in Leupp,
 Arizona. A government cost estimate dated
 July 2005 for $494,091 (deemed the “fair
 market price”) and a vendor cost proposal
 dated September 7, 2005, for $564,714
 were documented in the contract files.
 However, we did not find a price
 negotiation memorandum in the contract
 files, as required by FAR, to help explain
 why the government paid $70,623 more
 than the fair market price.                                           Shasta Dam and Plant

 In another example, we did not find evidence of               non-existent or questionable and unconvincing
 market research, an independent government                    written justifications for other than full and open
 estimate, or a fair and reasonable price                      competition. In some instances, the sole source
 determination in the contract file for a U.S. Fish            contract was awarded because of dubious
 and Wildlife Service (FWS) contract awarded on                “unusual and compelling urgency” reasons. For
 September 25, 2003, and valued at $100,000 for                example, U.S. Geological Survey (USGS)
 information technology systems support                        awarded a $99,960 sole source contract to a
 services. We also noted that this contract was                scientist who provided consulting services
 modified twice to add $50,000 each time with no               related to water issues on December 20, 2004,
 explanation as to why the contract was modified               and used urgency as the reason to justify the
 or what work was being performed, and that the                award. We noted, however, that the scientist has
 contract file lacked a written justification for              had a long standing contract (over 10 years) with
 other than full and open competition.                         USGS, which came up for renewal every year.
                                                               We believe the use of the compelling urgency
                                                               clause resulted more from USGS’s poor planning
 Sole Source Justifications                                    for the contract rather than the urgent need for
 Federal law recognizes that there are occasions               the consulting services.
 when full and open competition is not feasible.
 Under CICA and FAR, agencies can award                        Another contract for $499,500 and awarded sole
 noncompetitive contracts in cases when only one               source on the basis of unusual and compelling
 source can provide the needed goods or services               urgency was one issued by the Bureau of
 or when emergency circumstances require                       Reclamation (BOR) on September 29, 2006—
 immediate contract awards. But these and the                  one day before the end of the government fiscal
 other permissible exceptions13 are intended to be             year—for materials and supplies needed for the

13
   Circumstances that would permit other than full and open competition include: only one responsible source, unusual
and compelling urgency, authorized or required by statute, national security, and public interest. See FAR Subpart
6.302 for a complete list of permissible exceptions.

                                                        5
 second phase of a pumping plant upgrade at                     operate park-owned buses to transport park
 Shasta Dam. We question the urgency of this                    visitors from the entrance station visitor’s center
 acquisition, especially since the pumping plant                to historic Harpers Ferry Town was awarded sole
 upgrade was planned as a phased project. In                    source on June 30, 2000. However, a written
 addition, our review of the contract files revealed            justification was not in the contract file. The
 that staff discussed the completion of this project            original contract amount of $203,109 had been
 “at various times throughout the fiscal year.”                 increased to $1,043,764 after the contract was
                                                                modified 10 times to extend the period of
 Other sole source contracts had inadequate                     performance and increase contract funding.
 justifications. For example, we noted that a
 solicitor considered the written justification for           Section 8(a) Contracts
 awarding a $585,637 contract for a study of the              Our review of the reasons for sole source
 Klamath River Basin on the basis of one                      procurements revealed that the percentage of
 responsible source                                                                           total procurements
 to be “extremely                                                                             spent by the
 weak.” The                                                                                   Department on
 solicitor                                                                                    Section 8(a) sole-
 commented on                                                                                 source contracts
 September 14,                                                                                was significantly
 2005, that the                                                                               higher than the
 justification failed                                                                         government as a
 to support the sole                                                                          whole
 source contract                                                                              (see Figure 2).
 awarded on
 September 20,                                                                                Acquisition
 2005, and noted                                                                              officials told us
 that BOR needed                                                                              they favored the
 to adequately                                                                                awarding of sole
 establish why the                                                                            source contracts to
 selected contractor                                                                          8(a) firms because
 was uniquely                                                                                 it was a faster and
 qualified to the exclusion of all        Ellipse/President’s Park South
                                                                               easier method of contracting. In
 other contractors. We noted that some                        addition, acquisition officials contracted with 8
 justifications for other than full and open                  (a) firms to help their bureaus meet small
 competition, besides being weak or inadequate,               business goals. Because the bureaus can
 were not signed by the contracting officer or,               categorize contract awards to allow them to take
 when applicable, the competition advocate.14                 credit in more than one small business category,
 For instance, the written justification for a FWS            awards to 8(a) firms can be applied to the
 contract for $1,233,428 awarded on the basis of              bureaus’ overall small business goal as well as to
 one responsible source for the recovery                      their small, disadvantaged business, woman-
 implementation of the riparian brush rabbit and              owned business, Service-disabled, or veteran-
 woodrat was not signed by the contracting                    owned business goals, when applicable.
 officer or the competition advocate.
                                                                We believe that GovWorks circumvented
 In other instances, we noted that written                      competition among 8(a) firms. The majority
 justifications were never prepared. For example,               of 8 (a) contracts reviewed at GovWorks (five of
 an NPS contract to provide trained bus drivers to

14
   Per FAR Subpart 6.304, the justification for other than full and open competition shall be approved in writing—for a
proposed contract not exceeding $550,000 by a contracting officer and for a proposed contract over $550,000 but not
exceeding $11.5 million by the competition advocate for the procuring activity.

                                                            6
six contracts) were single award 8(a) indefinite-               In addition, we noted an NPS 8(a) contract to
delivery, indefinite-quantity (IDIQ)15 contracts                rehabilitate the Ellipse Park near the White
with task orders totaling to just under the FAR                 House was improperly split into multiple
$3 million threshold16 required to compete the                  contracts to avoid competing the contract among
contract amongst 8(a) vendors. One such                         other 8(a) firms. The entire project was
contract was estimated to have a total contract                 estimated to be over $10 million; however,
value of $2,999,900, just $100 under the                        e-mail correspondence in the contract file
threshold. It appeared that once the contract got               indicated that this NPS office intentionally split
close to the $3 million threshold, a new contract               this contract into multiple sections to keep each
with new task orders would be issued. While                     contract segment under the $3 million threshold.
FAR allows for the use of single award 8(a)                     For example, when work from one contract
IDIQ contracts, we have concerns over                           exceeded the threshold, the work was included in
GovWorks’ high use of these contracts                           another contract as a continuation of the same
approaching the $3 million threshold, thereby                   project. One such e-mail from an NPS employee
circumventing the requirement to compete the                    praised the contract specialist for manipulating
contract and avoiding the spirit of competition,                the contracts telling the specialist “thanks for
which is to share contracting opportunities                     be[ing] creative on this!”
within the 8(a) contractor community.




                                    2005 8(a) Sole Source Dollars
                                   Percentage of Total Procurement
     8.00%
     7.00%
     6.00%
     5.00%
     4.00%
     3.00%
     2.00%
     1.00%
     0.00%
                  Interior       Gov't-Wide     Veterans Af fairs Health/Human        Treasury         Agriculture
                                                                    Services


     Source: Federal Procurement Report
     FY 2005 https://www.fpds.gov/                                                                           Figure 2




15
   Under FAR Subpart 16.501-2(a), IDIQ contracts are a subset of indefinite delivery contracts. IDIQ contracts may be
delivery order or task order contracts. FAR Subpart 16.501-1 defines a “delivery order contract” as a contract for
supplies that does not procure or specify a firm quantity of supplies (other than a minimum or maximum quantity) and
that provides for the issuance of orders for the delivery of supplies during the period of the contract. A “task order
contract” is defined as a contract for services that does not procure or specify a firm quantity of services (other than a
minimum or maximum quantity) and that provides for the issuance of orders for the performance of tasks during the
period of the contract.
16
   See FAR Subpart 19.805-1(a)(2). Effective September 28, 2006, the $3 million threshold was increased to
$3.5 million.

                                                          7
                                       RECOMMENDATIONS

 The Department’s implementation of sole source                 competition advocate is charged with promoting
 contracting has circumvented its original intent,              full and open competition. In addition, we were
 which was to provide flexibility in the                        told by the Department’s Office of Acquisition
 contracting process under limited circumstances.               and Policy Management (PAM) competition
 Instead, the Department’s current practices have               advocate that PAM is thinking of reinstating the
 abused sole source contracting by: modifying                   submission of the competition advocate’s annual
 the scope of originally competed contracts,                    report since she noticed around December 2006
 resulting in de-facto sole source contracts; using             that the competition percentages had dropped
 justifications for other than full and open                    below what she would like to see. PAM’s
 competition that were questionable or not                      competition advocate informed us that the FAR
 properly documented in the contract files; and                 requirement to submit annual reports to Congress
 failing to establish fair value pricing for sole               was eliminated about 5 years ago.
 source contracts, including Section 8(a)
 contracts.                                                     In addition, many of the competition advocates
                                                                we interviewed told us that they receive few
 We are making three recommendations to correct                 contracts exceeding the competition review
 these deficiencies in the Department’s                         threshold.17 However, based on contract
 acquisition practices. Our recommendations are                 information from the Federal Procurement Data
 centered around increased Departmental                         System (FPDS), it appears that an average of 300
 oversight and control to align the Department’s                contracts valued at over $550,000 were awarded
 acquisition practices with current federal                     during fiscal years 2005 and 2006. Because of
 procurement regulations and policy. In addition,               this number, we believe the competition
 the recommendations would build upon the                       advocates’ required reviews are being bypassed
 current efforts to reform the procurement process              at some of the bureaus. As such, we propose the
 and encourage competition, thereby promoting                   bureaus be reminded that all contracts exceeding
 the integrity, accountability, and transparency of             $550,000 need to be submitted for competition
 the government acquisition function.                           review to their respective competition advocate.

                         1. To reinforce the use of             Further, because this high contract cost threshold
                         competition in the                     for competition review allows most sole source
       Empower           acquisition process, we                contracts to be awarded without a competition
      Competition        recommend that the role of             advocate’s independent evaluation, we propose
                         the competition advocate be            that a random sample of contracts valued at
       Advocates         implemented as envisioned              $550,000 or less be reviewed during the periodic
                         by Congress and codified in            acquisition management reviews (AMRs)
                         FAR.                                   performed by PAM to ensure that competition
                                                                requirements are met for these contracts. We
 We found that most, if not all, competition                    also propose that competition advocates review
 advocates were underused, lacked resources, and                modifications to competed contracts that
 faced conflicting interests in their often times               increase total contract values over a certain
 dual role as competition advocate and                          dollar amount or percentage threshold from the
 procurement chief. As a procurement official,                  original contract award. Furthermore, we
 obligating funds, issuing awards, and meeting                  propose that the competition advocate role be
 programmatic deadlines are often the                           separated from the procurement chief role and a
 benchmarks for contracting success, whereas a                  study be performed on the viability of

17
     The competition review threshold of $500,000 was increased to $550,000 effective September 28, 2006.

                                                            8
centralizing the competition advocate role at the       Section 8(a) goals are met, contracting emphasis
Department level.                                       be shifted to meet the other small business
                                                        program goals, such as the goal for the Service-
                     2. To reduce the number of         disabled vets. SBA’s Small Business
 Promote Better      sole source contracts that         Procurement Scorecard released in August 2007
  Coordination       are issued throughout the          reported that the Department failed to meet its
    Between          fiscal year, we recommend          small business and Service-disabled veteran-
                     that program personnel             owned small business goals in fiscal year 2006.
  Program and        closely coordinate their           Lastly, we recommend that PAM continue
  Procurement        contractual needs with             conducting its oversight responsibilities,
   Personnel         procurement personnel to           including the required number of annual AMRs.
                     promote a seamless                 These AMRs should include a review of:
acquisition planning process.
                                                        a) Sole source contracts to ensure that full and
This process should include the establishment of           open competition was used to the maximum
a deadline for submitting standard acquisition             extent possible; applicable sole source
requests to allow for adequate lead time needed            contracts were submitted for independent
for effective and full and open competition. If            review to the competition advocate; market
implemented, this process should alleviate the             research was conducted and a fair and
rush to expend appropriated funds in the final             reasonable price established; and written
quarter of the fiscal year. We recognize that              justifications for other than full and open
government procurement decisions are driven to             competition were adequately prepared,
a great extent by the budget and appropriations            convincing, and documented;
process, which often limits availability of
program or operation funds to a single fiscal           b) Section 8(a) contracts to ensure that fair
year. In addition, this annual funding process             market prices were established and the
may be delayed when Congress decides not to                $3.5 million contract cost threshold for full
approve an agency’s annual appropriations on               and open competition among 8(a) firms is
time. To minimize the disruptions in the                   followed;
acquisition planning process caused by such a
                                                        c) Competed and modified contracts to ensure
delay, we propose that the Department’s
                                                           that the modifications did not substantially
individual bureaus and offices consider using the
                                                           change the original scope of work; and
program fund amounts set by the previous fiscal
year’s budget as a guide when determining how           d) AMRs performed by the individual bureaus.
much acquisition funding is available for the
fiscal year.                                            Additionally, PAM should ensure that the
                                                        recommendations resulting from the findings of
                     3. To reduce the use of sole       the AMRs are implemented by the individual
     Hold            source contracts, managers         bureaus and Departmental offices.
  Management         and other personnel having
  Accountable        oversight roles must be held
                     accountable.                         “Competition is the cornerstone of our
                                                          acquisition system. Competition saves
We recommend that measurable goals be                         money, …improves contractor
established to minimize the use of contracts             performance, curbs fraud, and promotes
awarded without full and open competition. To                  accountability for results.”
do this, accuracy of contract reporting into the
FPDS must first be ensured. Once measurable                  — Paul A. Denett, Administrator, OFPP
goals are established, these goals should be                          May 31, 2007 Directive
posted along with the performance results on the
Internet. In addition, we recommend that once

                                                    9
                                                                                           Appendix 1
                                                                                           Page 1 of 2

                                   PRIOR REVIEWS
OIG and GAO issued recent reports that were applicable to our evaluation. These reports (issued in
the last 3 years) are listed below.

OIG
January 2007. FY2005 Department of the Interior Purchases Made on Behalf of the Department of
Defense (X-IN-MOA-0018-2005) reported that the Department, in providing acquisition services to
DoD, did not always follow appropriation and procurement laws, regulations, and rules. Specifically,
the report found (1) 19 of 49 contracting actions reviewed potentially violated the Antideficiency Act
(ADA) when using what appeared to be expired funds; (2) one contract appeared to obligate the
government in advance of appropriation of the funds—another potential violation of ADA; and
(3) 34 contracting actions had other types of deficiencies or questionable practices.

January 2007. Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives for
Collaborative Partnerships (W-IN-MOA-0086-2004) reported that of the 119 cooperative agreements
reviewed, 116 were awarded without clear legal authority; 74 were issued in lieu of procurement
contracts to acquire mission-related goods and services; 100 were issued without soliciting for
competition and therefore did not ensure that the best goods and services were acquired at the most
reasonable price possible; and 62 did not have substantial involvement by both parties, a defining
characteristic of what constitutes a cooperative agreement.

January 2007. Bureau of Indian Affairs, Radio Communications Program (C-IN-BIA-0017-2005)
reported that BIA violated FAR by inappropriately modifying an existing task order. BIA made five
modifications to the task order, increasing its value from $1.5 million to $7.1 million and extending
the period of performance by over 2 years. At least three of the modifications, totaling about
$5.5 million, improperly altered the scope of the task order, added significant additional work and
funding, and/or substantially extended the period of performance. These modifications resulted in
improper sole source awards of additional work.

May 2006. Report of Investigation – Allegations Concerning Senior Officials of the Office of Special
Trustee for American Indians reported that the Office awarded and continued to extend and expand,
without competition, a contract with Chavarria, Dunne & Lamey (CD&L) LLC for trust fund
accounting and risk management services. The report found that senior office officials engaged in
extensive outside social activity with executives of CD&L, thereby creating an appearance of
preferential treatment. The report also found that Office contract personnel felt pressured by these
senior officials to continue to award work to CD&L.

March 2006. Fee-For-Service Organizations, U.S. Department of the Interior (C-EV-MOA-0016-
2005) questioned whether the overall benefits of the Department’s fee-for-service operations may not
outweigh the risks to the Department. Risks include the Department and other agencies not following
procurement laws and regulations and fee-for-service providers sometimes operating without effective
controls in their desire to attract customers in a competitive environment.

August 2005. Framework Needed to Promote Accountability in Interior’s Grants Management
(W-IN-MOA-0052-2004) provided seven internal control processes necessary to effectively manage
grants and create a culture of accountability and stewardship for Department grants programs. The


                                                  10
                                                                                            Appendix 1
                                                                                            Page 2 of 2
seven processes include producing reliable data, soliciting competition, monitoring grants effectively,
writing effective grant agreements, providing adequate training, streamlining policies and procedures,
and establishing measurable goals.

September 2004. Bureau of Reclamation, Denver Office, Contract Administration (C-IN-BOR-0067-
2002) reported that in each of the 15 contract actions reviewed, BOR did not comply with FAR and
other regulations and guidelines related to awarding and administering contract actions. For example,
BOR inappropriately awarded a sole-source contract without adequate justification for the absence of
competition; awarded time-and-materials contracts when firm-fixed-price contracts would have been
more advantageous to the government; and split purchases to stay below the micro purchase limit of
$2,500 and avoid additional purchasing requirements.

July 2004. Review of 12 Procurements Placed Under General Services Administration Federal Supply
Schedules 70 and 871 by the National Business Center (W-EV-OSS-0075-2004) found procurements
made under the General Services Administration schedule at the Acquisition Services Division,
Southwest Branch in Fort Huachuca, Arizona, were out of scope.

GAO
January 2007. High-Risk Series-An Update (GAO-07-310) reported that interagency contracting
continues to be a high-risk area in the federal government for fraud, waste, abuse, and mismanagement.
Interagency contracting was first designated as a high risk area in 2005.

April 2006. Increased Use of Alaskan Native Corporations’ Special 8(a) Provision Calls for Tailored
Oversight (GAO-06-399) reported that agencies used 8(a) Alaskan Native Corporation (ANC) firms as a
quick, easy, and legal method of awarding contracts for any value, while helping meet small business
goals. In one contract, GovWorks did not consider any alternatives other than sole-source contracting
with the ANC firm because DoD had requested that firm.

September 2005. Framework for Assessing the Acquisition Function at Federal Agencies (GAO-05-
218G) provided senior acquisition executives, as well as GAO and other accountability organizations, an
ability to assess at a high level the strengths and weaknesses of agencies’ acquisition functions. The
framework comprised four interrelated cornerstones that promote an efficient, effective, and accountable
acquisition function: (1) organizational alignment and leadership, (2) policies and processes, (3) human
capital, and (4) knowledge and information management.

July 2005. Interagency Contracting: Franchise Funds Provide Convenience, but Value to DOD is Not
Demonstrated (GAO-05-456) reported that GovWorks did not always ensure fair and reasonable prices
when procuring goods and services, specifically when requesting that contractors perform additional
work. GovWorks thereby substantially increased contract values and in many cases did not receive
competing proposals.

April 2005. Interagency Contracting: Problems with DoD’s and Interior’s Orders to Support Military
Operations (GAO-05-201) reported that a lack of management controls, specifically insufficient
management oversight and inadequate training, led to the Department not (1) issuing orders that were
within the scope of the underlying contract, in violation of competition rules; (2) complying with
additional DoD competition requirements when issuing task orders for services on existing contracts;
and (3) complying with ordering procedures meant to ensure best value for the government.

January 2005. High-Risk Series-An Update (GAO-05-207) introduced interagency contracting as a
newly added high-risk area in the federal government for fraud, waste, abuse, and mismanagement.

                                                   11
                                                                                              Appendix 2


                        SCOPE AND METHODOLOGY
This self-initiated evaluation was included in the OIG fiscal year 2007 audit work plan. We conducted
fieldwork from May 2007 to August 2007. To accomplish the evaluation, we used data from the FPDS
to select sites visited. We visited 39 bureau offices, 6 Departmental offices, and 3 other offices outside
of the Department (please see Appendix 3). We focused our review on all contracts issued or active in
fiscal years 2005 and 2006. We did not look at contracts issued by the Department on behalf of other
agencies.

The FPDS data has a long history of inaccurate data based on input made by contracting personnel. We
found this to be the case when using the FPDS reports and found several coding errors. Despite these
errors, we used the FPDS data to generate reports on the contract universe within the Department
because of the lack of any other Department-wide procurement tracking system.

Our evaluation was conducted in accordance with the January 2005 Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency. As part of our evaluation, we reviewed
the following:

♦   Applicable laws, proposed legislation, regulations, policies, procedures, and other criteria, including
    policy guidance;

♦   Sole source contracts, competed contracts, contract modifications, socio-economic contracts,
    justifications for other than full and open competition, and other documents as appropriate;

♦   FPDS data and reports, and compared the Department’s data against individual bureaus and other
    federal agencies;

♦   The Department’s and individual bureaus’ small business goals and outcomes;

♦   AMRs, OIG and GAO reports, and other relevant reports; and

♦   The Department’s Fiscal Year 2005 and 2006 Performance and Accountability Reports, including
    information required by the Federal Manager’s Financial Integrity Act.

We also interviewed procurement officials from the Department, bureau headquarters, regional and field
offices, and other procurement officials outside the Department.




                                                    12
                                                                        Appendix 3
                                                                        Page 1 of 2

                        SITES VISITED

                        Bureau of Indian Affairs
Central Office, Office of Acquisition and Property Management, Reston, VA
                  Northwest Regional Office, Portland, OR
                    Western Regional Office, Phoenix, AZ
             Albuquerque Acquisition Center, Albuquerque, NM
                     Bureau of Land Management
           Headquarters, Washington Office, Washington, DC
               California State Office, Sacramento, CA
                    Business Center, Denver, CO
                 Oregon State Office, Portland, OR
                        Bureau of Reclamation
               Management Services Office, Denver, CO
              Mid-Pacific Regional Office, Sacramento, CA
              Pacific Northwest Regional Office, Boise, ID
                   Phoenix Area Office, Phoenix, AZ
                    U.S. Fish and Wildlife Service
           Headquarters, Washington Office, Arlington, VA
                Southeast Regional Office, Atlanta, GA
    Southeast Region Law Enforcement Services Office, Atlanta, GA
         Ecological Services, Georgia Field Office, Athens, GA
           Piedmont National Wildlife Refuge, Hillsboro, GA
     Warm Springs Regional Fisheries Center, Warm Springs, GA
            Mountain-Prairie Regional Office, Denver, CO
                 Pacific Regional Office, Portland, OR
            Southwest Regional Office, Albuquerque, NM
                    Minerals Management Service
                     Headquarters, Herndon, VA
           Western Administrative Service Center, Denver, CO
                         National Park Service
                     WASO Office, Washington, DC
                National Capital Region, Washington, DC
                Harpers Ferry Center, Harpers Ferry, WV
                 Southeast Regional Office, Atlanta, GA
      Martin Luther King Jr. National Historic Park Site, Atlanta, GA
      Washington Contracting and Procurement Office, Denver, CO
                   Denver Service Center, Denver, CO
               Intermountain Regional Office, Denver, CO
                    Pacific West Region, Oakland, CA


                                    13
                                                                     Appendix 3
                                                                     Page 2 of 2

                       SITES VISITED

                       Office of Surface Mining
                   Headquarters, Washington, DC
           Headquarters, Office of Administration, Denver, CO
                       U.S. Geological Survey
           California Water Science Center, Sacramento, CA
           Branch of Acquisition and Grants, Sacramento, CA
              Headquarters, National Center, Reston, VA
                  Central Regional Office, Denver, CO
                  Eastern Regional Office, Reston, VA
                          Office of Secretary
     Office of Acquisition and Property Management, Washington, DC
            GovWorks, Federal Acquisition Center, Herndon, VA
                  National Business Center, Denver, CO
     National Business Center, Main Interior Building, Washington, DC
National Business Center, Aviation Management Regional Office, Boise, ID
 Office of Small and Disadvantaged Business Utilization, Washington, DC
                             Other Offices
        Office of Federal Procurement Policy, Washington, DC
Small Business Administration, Inspector General Office, Washington, DC
    Department of Defense, Acquisition University, Washington, DC




                                  14
